      OFFICE OF JUSTICE PROGRAMS 

     BUREAU OF JUSTICE ASSISTANCE 

  CONGRESSIONALLY MANDATED GRANT TO

MOUNTAINTOP TECHNOLOGIES, INCORPORATED 

       JOHNSTOWN, PENNSYLVANIA 





        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 



        Audit Report GR-70-12-001 

               October 2011




      REDACTED – FOR PUBLIC RELEASE 

                 OFFICE OF JUSTICE PROGRAMS 

                BUREAU OF JUSTICE ASSISTANCE 

             CONGRESSIONALLY MANDATED GRANT TO

           MOUNTAINTOP TECHNOLOGIES, INCORPORATED 

                  JOHNSTOWN, PENNSYLVANIA 


                            EXECUTIVE SUMMARY* 


       The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of an Office of Justice Programs (OJP),
Bureau of Justice Assistance (BJA), congressionally mandated grant to
MountainTop Technologies, Inc. (MountainTop). Between September 2004
and September 2006, BJA awarded MountainTop a total of $3,454,668,
distributed through one grant and two supplements.1 The purpose of the
grant program was to help improve the ability of law enforcement agencies
in southwestern Pennsylvania to fight crime.

               BJA CONGRESSIONALLY MANDATED AWARD

                      GRANT TO MOUNTAINTOP 

                                   PROJECT
      GRANT AWARD     AWARD DATE             AWARD AMOUNT
                                  END DATE
    2004-DD-BX-1374             09/23/04          05/31/07           $     494,739
      Supplement 1              09/23/05          05/31/08                 986,643
      Supplement 2              09/29/06          05/31/10               1,973,286
                                                      Total:        $ 3,454,668
Source: Office of Justice Programs

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. We also assessed the grantee’s performance in
meeting grant objectives and overall accomplishments.

      We found that MountainTop was in material non-compliance with the
grant requirements we tested. We reviewed MountainTop’s compliance with

       * Names or information that may implicate the privacy rights of individuals under the
Privacy Act of 1974, 5 U.S.C. § 552(a) have been redacted, that is, blacked out, from
Appendix III so that this report can be issued publicly. No other information has been excised
from this public report.
       1
         The congressionally mandated award was appropriated to the Office of Community
Oriented Policing Services (COPS) under its Law Enforcement Technology and Interoperability
grants, and then transferred to OJP (via an interagency agreement) for BJA to administer.


                                              i
seven essential grant conditions and found material weaknesses in two of
the seven areas we tested: (1) monitoring subrecipients and (2) budget
management and control. Because of the deficiencies identified, we are
questioning $3,335,583 of the grant funds.

      In performing our fieldwork, we found that MountainTop acted solely
as a pass-through entity for the grant funds it received and that individuals
within Pennsylvania’s 12th Congressional District Office (12th District Office)
were responsible for most decisions regarding the grant program.
Specifically, we found that the 12th District Office directed MountainTop in
how to distribute grant funds, including which law enforcement organizations
would receive funds and the amount and timing of funds to be disbursed.
We found that MountainTop maintained grant-related documentation,
including information supplied by those law enforcement agencies receiving
funds, submitted required reports regarding the grant, and performed
administrative functions for the grant and its supplements, including the
submission of grant applications and the confirmation that an outside audit
of the program was performed. We also noted that not all law enforcement
agencies in the 12th Congressional District of Pennsylvania received grant
funds.

       MountainTop developed an internal accounting procedure manual
entitled The Congressionally Mandated Grant Management Guide, designed
specifically to manage the OJP grant, following the direction of the 12th
District Office. This guide established how funds were to be distributed to
the subrecipients and stated:

      Law Enforcement agencies within the 12th District begin 

      the check issuing process [distribution of grant funds] 

      by submitting a formal letter to the 12th District Office 

      requesting grant funds and how they intend to use the 

      money. The 12th District Office will review the request 

      and, if approved, they will forward the request letter to 

      the MountainTop program manager with the amount to 

      be disbursed. 


The 12th District Office then gave MountainTop “authority”, which
MountainTop exercised, to disburse funds using checks to the subrecipients
in specified amounts. After the funds were received, according to the guide,
subrecipients had 90 days to expend the grant money and 100 days to send
documentation supporting the grant expenditures to MountainTop. This
procedure was in direct violation of the OJP Financial Guide, which required
that funds on hand be minimized and limited to disbursements/
reimbursements to be made immediately or within 10 days of the grantee’s


                                      -ii-
drawdown of “Federal cash.” MountainTop maintained the supporting
documentation provided by the subrecipients for grant expenditures and
tracked the grant money spent by the subrecipient agencies.

       During our fieldwork, we also found that MountainTop did not provide
adequate oversight of grant subrecipients. According to the OJP Financial
Guide, as the direct grant recipient, MountainTop was responsible for all
aspects of the program, including proper accounting and financial
recordkeeping of all subrecipient transactions. We visited 27 of the 118
grant subrecipients that received grant funds through MountainTop to
determine the level of monitoring performed by MountainTop. During our
visits, we found that MountainTop failed to evaluate the operations, records,
systems, procedures, or accounting practices of the subrecipients we
selected for review. In reviewing the accounting for grant funds at the
subrecipients, we noted instances where grant funds were not deposited in
subrecipient accounts, but were held in separate accounts, as well as
instances of commingling, and potential supplanting. Although we did not
find that grant funds were spent on non-law enforcement activities during
our site visits, the risk of waste, fraud, and abuse of grant funds was
certainly heightened due to MountainTop’s lack of oversight and monitoring.

      We also found that MountainTop failed to control and manage the
grant budget. MountainTop did not ensure that grant-related expenditures
conformed to the approved grant budget. While MountainTop classified all
subrecipient expenditures as equipment, our testing found that actual
expenditures made by the subrecipients included charges for equipment,
personnel, training, and supplies. As a result, we were unable to determine
the grant funds expended permissible under the approved grant budget.

      In addition to the issues of material non-compliance noted above, we
also determined that MountainTop charged overhead and general and
administrative rates to the grant without OJP approval to do so.

      We found that MountainTop did not have a formal method to measure
performance of the program and did not ensure the goals and objectives of
the grant were reached.

      Lastly, MountainTop’s independent auditors should have completed
two individual audit reports. However, MountainTop submitted only one of
the required annual program specific audits over a 2-year period.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.


                                     -iii-
      We discussed our audit findings with MountainTop officials during our
fieldwork and included their comments in the report as applicable. However,
we have not updated our audit work since then because, based on the
irregularities identified, we referred the matter for investigation.

       The OIG investigation found that MountainTop’s OJP grant application
statements about how it would administer the grant funds were not
consistent with how MountainTop actually administered those funds. In
addition, MountainTop failed to ensure that grant funds were spent in
accordance with allowable grant expenditures and the administration
processes described in its applications. The investigation further found that
MountainTop did not have adequate factual basis for the statements in its
certified Financial Status Reports to OJP that it spent the grant funds in
accordance with the grant award terms and conditions. In some instances,
this lack of factual knowledge resulted in inaccurate certifications by
MountainTop. We updated our audit report with this information obtained
from the investigation and provided the updated report to MountainTop for
its review.

      Since our audit work was completed, we noted that MountainTop
received a Congressionally Mandated Grant, number 2008-DD-BX-0449, in
September 2008 for $1,964,730. According to grant award documents,
MountainTop was again responsible for distributing funds to law enforcement
agencies within the 12th District for the purchase of law enforcement
equipment. As of February 22, 2011, all of the funds for this grant had been
drawn down by MountainTop, and the grant was closed by OJP.

       We requested a response to our draft report from MountainTop and
OJP, and their responses are appended to this report as Appendix III and IV,
respectively. Our analysis of both responses, as well as a summary of the
actions necessary to close the recommendations can be found in Appendix V
of this report.




                                     -iv-
                               TABLE OF CONTENTS


INTRODUCTION ..................................................................... 1 

Background ............................................................................... 1 

Our Audit Approach .................................................................... 3



FINDINGS AND RECOMMENDATIONS ...................................... 5 

Overview .................................................................................. 5 

Grant Expenditures .................................................................... 5 

Monitoring Subrecipients ............................................................. 6 

Reports .................................................................................. 10 

Drawdowns ............................................................................. 10 

Budget Management and Control ............................................... 11 

Program Income ...................................................................... 13 

Program Performance and Accomplishments ................................. 13 

Other Reportable Matters .......................................................... 14 

Conclusion .............................................................................. 15 

Recommendations.................................................................... 15



APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY....... 17 

APPENDIX II - SCHEDULE OF DOLLAR RELATED FINDINGS ... 19 

APPENDIX III – MOUNTAINTOP TECHNOLOGIES, INC. 

   RESPONSE TO THE DRAFT AUDIT REPORT........................ 20 

APPENDIX IV – OFFICE ON JUSTICE PROGRAMS RESPONSE 

   TO THE DRAFT AUDIT REPORT ......................................... 29 

APPENDIX V – OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT .................................................... 32 

                                   INTRODUCTION

       The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of an Office of Justice Programs
(OJP), Bureau of Justice Assistance (BJA), congressionally mandated grant to
MountainTop Technologies, Inc. (MountainTop). Between September 2004
and September 2006, BJA awarded MountainTop a total of $3,454,668,
distributed through one grant and two supplements.2 The purpose of the
grant program was to help improve the ability of law enforcement agencies
in southwestern Pennsylvania to fight crime. The majority of the grant
budget provided funding for the purchase of equipment.

                  BJA CONGRESSIONALLY MANDATED

                       GRANT TO MOUNTAINTOP 

                                    PROJECT
      GRANT AWARD     AWARD DATE              AWARD AMOUNT
                                   END DATE
    2004-DD-BX-1374            09/23/04          05/31/07         $     494,739
      Supplement 1             09/23/05          05/31/08               986,643
      Supplement 2             09/29/06          05/31/10             1,973,286
                                                     Total:       $ 3,454,668
       Source: Office of Justice Programs

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. We also assessed the grantee’s program
performance in meeting grant objectives and its overall accomplishments.

Background

      Since 1984, OJP has provided federal leadership in developing the
nation's capacity to prevent and control crime, improve the criminal and
juvenile justice systems, increase knowledge about crime and related issues,
and assist crime victims. The BJA provides leadership and assistance in
support of local criminal justice strategies to achieve safer communities.
The BJA's overall goals are to (1) reduce and prevent crime, violence, and
drug abuse and (2) improve the functioning of the criminal justice system.




       2
         The congressionally mandated award was appropriated to the Office of Community
Oriented Policing Services (COPS) under its Law Enforcement Technology and Interoperability
grants, and then transferred to OJP (via an interagency agreement) for BJA to administer.


                                            - 1 -

MountainTop Technologies, Inc.

      MountainTop is located in Johnstown, Pennsylvania, approximately 60
miles east of Pittsburgh. MountainTop is a for-profit, closely-held company
focusing on the development, delivery, management, and operation of
learning technology and transportation services.

Grant Overview

       In performing our audit work, we found that, although MountainTop
was the recipient of the BJA grant award, it acted solely as a pass-through
entity for the grant funds it received. We determined that individuals
working for Pennsylvania’s 12th Congressional District Office (12th District
Office) were responsible for most decisions regarding the grant program.
Specifically, we found that the 12th District Office directed MountainTop how
to distribute grant funds, including which law enforcement organizations
would receive funds and the amount and timing of fund disbursements. We
found that MountainTop maintained grant-related documentation, including
information supplied by law enforcement agencies receiving funds,
submitted required financial status and progress reports, and performed
administrative functions for the grant and its supplements. Administratively,
MountainTop submitted grant applications and engaged an accounting firm
for an independent audit of the program. We also noted that the ultimate
subrecipients of grant funds were law enforcement agencies located
exclusively in the 12th Congressional District encompassing a portion of
southwestern Pennsylvania. However, we also determined that not all law
enforcement agencies in the 12th Congressional District received grant
funds.

       MountainTop developed an internal accounting procedure manual
entitled The Congressionally Mandated Grant Management Guide, specifically
designed to manage the grant following the direction of the 12th District
Office. This guide established how funds were to be distributed to the
various law enforcement agencies (subrecipients) and stated:

     Law Enforcement agencies within the 12th District begin 

     the check issuing process [distribution of grant funds] by 

     submitting a formal letter to the 12th District Office 

     requesting grant funds and how they intend to use the 

     money. The 12th District Office will review the request 

     and, if approved, they will forward the request letter to 

     the MountainTop program manager with the amount to 

     be disbursed. 




                                    - 2 -

       The 12th District Office then gave MountainTop “authority,” which it
exercised, to disburse grant funds to the subrecipients in specified amounts.
After the funds were received by the subrecipients, according to the guide,
subrecipients had 90 days to spend the grant money and 100 days to
provide MountainTop with documentation supporting their expenditures.
MountainTop maintained the supporting expenditure documentation provided
by the subrecipients and tracked the grant money spent by each of the
various law enforcement agencies.

       Because of the irregularities we identified while performing our audit,
we referred the matter for investigation. The investigation found that
MountainTop’s statements in its OJP grant applications about how the grant
funds would be administered did not accurately describe the manner in
which they were actually administered. In addition, the investigation
substantiated that MountainTop did not ensure that grant funds were spent
in accordance with allowable grant expenditures and the administration
processes as described in its grant applications. As a result, MountainTop
did not have an adequate factual basis for the statements in its Financial
Status Reports to OJP, on which it certified that funds were spent in
accordance with the grant award terms and conditions. The investigation
concluded further that, in some cases, MountainTop’s certifications were
plainly inaccurate.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grants. The criteria we audited against are found in the
OJP Financial Guide. We tested MountainTop’s:

      	 grant expenditures to determine whether the costs charged to
         the grant are allowable and supported,

      	 monitoring of subrecipients to determine whether the grantee
         had taken appropriate steps to ensure that subrecipients comply
         with grant requirements,

         Financial Status and Progress Reports to determine if the
          required Financial Status Reports and Progress Reports were
          submitted on time and accurately reflect grant activity,

         grant drawdowns to determine whether they were adequately
          supported and if the grantee was managing grant receipts in
          accordance with federal requirements,



                                     - 3 -

     	 budget management and control to determine the overall
        acceptability of budgeted costs by identifying any budget deviations
        between the amounts authorized in the BJA-approved grant budget
        and the actual costs incurred for each budget category,

     	 program income to determine if program income was properly
        accounted for and applied to the grant, and

     	 program performance to determine whether MountainTop
        achieved grant objectives and to assess performance and grant
        accomplishments.

     When applicable, we also tested for compliance in the areas of
matching funds and monitoring of sub-grantees. For the grant award and
accompanying supplements to MountainTop, we performed limited work to
determine that matching funds were not required and that there were no
subgrantees.




                                   - 4 -

                 FINDINGS AND RECOMMENDATIONS

       COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

     We determined that MountainTop was in material
     non-compliance with essential grant requirements. We found
     that MountainTop: (1) did not adequately monitor grant
     subrecipients and (2) exercised poor budget management and
     control. MountainTop was responsible for all aspects of the
     program including proper accounting and financial
     recordkeeping of all subrecipient transactions, but did not
     conduct any independent monitoring of the subrecipients. Due
     to poor management and inadequate monitoring of
     subrecipients, we found the grant funds were not spent by the
     subrecipients according to grant requirements. As a result of
     these deficiencies, we question $3,335,583 in grant
     expenditures, or about 97 percent of the total grant award.

Overview

       In performing this audit of the congressionally mandated grant
(including two supplements) awarded to MountainTop, we requested detailed
grant expenditure information. MountainTop provided over 15 binders of
grant related information, mostly consisting of documentation in support of
expenditures provided by the 118 subrecipients. We found that
MountainTop acted solely as a pass-through entity for the grant funds it
received and that individuals working for Pennsylvania’s 12th Congressional
District Office (12th District Office) were responsible for most decisions
regarding the grant program. We determined that MountainTop maintained
grant related documentation, submitted required reports regarding the
grant, and performed administrative functions for the grant and its
supplements.

Grant Expenditures

      MountainTop’s grant expenditures consisted of (1) personnel and
indirect costs related to the administration of the grant program,
(2) payments for an independent audit of the grant program, and
(3) disbursements made to subrecipients in support of various law
enforcement expenditures.




                                   - 5 -

Personnel and Indirect Costs

       MountainTop spent a total of $9,884 on personnel costs, including
indirect costs, for performing grant administration. We found no exceptions
with the charging of personnel costs to the grant. However, MountainTop
charged an overhead rate of 98 percent and a general and administrative
rate of 21 percent to the personnel costs. We reviewed grant records and
confirmed with MountainTop that it did not have OJP budget approval to
charge any indirect costs to the grant. Therefore, we are questioning
$4,914 of indirect costs charged to the grant. In response, a MountainTop
official told us they are now requesting an indirect rate approval from OJP.

Program Specific Audit

      OJP required MountainTop to have a program specific audit performed
that covered the management of the grant program in conformity with grant
requirements (see the Program Specific Audit Report section of this report
for details). MountainTop engaged an independent accounting firm and paid
a total of $5,885 for the audit. We reviewed supporting documentation for
the $5,885 and found no exceptions.

Subrecipient Payments

      At the time of the audit, MountainTop requested grant funding of
$3,330,669 for subrecipient payments, but had only disbursed funds totaling
$2,280,513 to subrecipients to purchase law enforcement equipment.3 We
performed a limited review of the disbursements, made via checks to the
subrecipients, and determined the disbursements were properly accounted
for and adequately supported by MountainTop financial account activity
reports and bank statements.

Monitoring Subrecipients

     According to the OJP Financial Guide, as the direct grant recipient,
MountainTop was responsible for all aspects of the program including proper
accounting and financial recordkeeping of all subrecipient grant funded
expenditures. Moreover, MountainTop was required to ensure that
subrecipients had a system of internal control in place to safeguard and
account for the grant funds. MountainTop was also required to provide

       3
           MountainTop provided accounting records for the $2,280,513 dispersed to
subrecipients. According to MountainTop personnel, MountainTop was in the process of
distributing the remaining $1,050,156 to subrecipients. Therefore, expenditure
documentation was unavailable to review at the time of our audit. Since our audit work,
MountainTop has requested all but $3,885 of the total grant funds, or a total of $3,450,783.


                                            - 6 -

adequate monitoring to ensure that subrecipients used the grant funds for
their intended grant authorized purpose.

       Based on our preliminary findings that showed MountainTop failed to
adequately monitor the expenditures made by the subrecipients, we visited
27 of the 118 subrecipient locations, or nearly 23 percent of the law
enforcement agencies receiving grant funds, to determine the level of
monitoring performed by MountainTop. We selected our non-statistical
sample of 27 subrecipients based on factors that included amount of grant
funds received and location. These site visits were limited to establishing
the extent to which MountainTop performed monitoring functions as required
by the OJP Financial Guide. Our testing was not intended to examine the
expenditures made by each subrecipient and we did not attempt to
determine whether grant expenditures were allowable and supportable or
whether the subrecipients complied with all of the terms and conditions of
the grant. Instead, we examined the potential risks associated with the
grant funds to determine whether potential fraud, significant abuse, or
wasteful spending of the funds had taken place. Despite not testing the
grant funds received and expended by the subrecipients, we found
numerous instances during our site visits where subrecipients did not
conform to grant requirements. These instances are discussed in greater
detail below.

MountainTop’s Documentation

      We requested and were provided a listing of 118 subrecipients (law
enforcement agencies) that received funding and the amount each received.
Additionally, MountainTop provided us with a list of subrecipient
grant-funded expenditures for which they received supporting
documentation from the subrecipients. We found that the documentation
maintained and used by MountainTop for the monitoring of subrecipients
was inadequate. The documentation did not provide a thorough accounting
of the expenditures made by the subrecipients and, in some instances, the
documentation reflected only planned purchases to be made by the
subrecipients. As a result, we could not test subrecipient transactions based
on the documentation maintained by MountainTop.

Financial Operations, Records, Systems, and Procedures

      The OJP Financial Guide states that direct recipients should be familiar
with, and periodically monitor, their subrecipients’ financial operations,
records, systems, and procedures. In addition, the accounting systems of all
recipients and subrecipients must be designed and must function to ensure



                                    - 7 -

that agency funds are not commingled with funds from other sources and
that each federal award is accounted for separately.

       During our site visits, we asked subrecipients about monitoring
activities MountainTop performed. Subrecipient personnel stated that
MountainTop did not evaluate their financial operations, records, systems, or
procedures at any juncture. Furthermore, these subrecipients stated that
MountainTop did not make any attempt to review or evaluate their
accounting practices or accounting system reports prior to distributing grant
funds.

      We also found that many of the subrecipients’ grant-funded
transactions were commingled with locally funded transactions, thereby
compromising any audit trail of grant funds. In addition, we found instances
where subrecipients accounted for grant funds in a manner separate and
apart from their own accounting system. In these instances, their
accounting consisted merely of a checkbook and bank statements to support
the deposit and subsequent disbursement of grant funds received. We found
no evidence that MountainTop or any independent auditor reviewed the
receipt and disbursement of grant funds or that local agency disbursement
processes were followed.

Inventory Controls

      The OJP Financial Guide requires property records to be accurately
maintained. It also requires a physical inventory of property and the results
of that inventory reconciled with property records at least once every two
years. In addition, a control system must be in place to ensure adequate
safeguards to prevent loss, damage, or theft of the property. We found that
MountainTop did not make any attempt to evaluate the subrecipients’
property management systems. We also found that many subrecipients had
no inventory system. As a result, we are concerned that grant-funded
purchases of equipment or property, including firearms, tasers, and
ammunition, are not properly safeguarded and accounted for as required by
MountainTop’s grants.

Timely Expenditures

      Pursuant to the OJP Financial Guide, recipients must time their
drawdown requests to ensure that federal cash on hand is the minimum
needed for disbursements, to be made immediately or within 10 days of the
drawdown. In a letter accompanying disbursements made to subrecipients,
MountainTop provided guidance, stating “these funds should be expended
within 90 working days of receipt.” This guidance is not consistent with OJP


                                    - 8 -

policy. Additionally, during our fieldwork we found instances where grant
funds remained in subrecipient bank accounts for over a year. This resulted
in some subrecipients earning unreported interest on grant funds, also
impermissible according to OJP guidance.

Budgeting

      The OJP Financial Guide states that grant recipients should ensure that
each subrecipient prepares an adequate budget on which its award
commitment will be based. The details of each project budget must be
maintained on file by the recipient. In addition, federal funds must be used
to supplement existing funds for program activities and must not replace
funds appropriated for the same purpose. We found that MountainTop did
not make any attempt to review or evaluate subrecipient budgets. Although
we did not find direct evidence of subrecipients supplanting local funds with
grant funds, the risk that supplanting might occur and not be detected was
increased by MountainTop’s failure to review and evaluate subrecipient
budgets.

Other Areas of Concern

       Our audit also identified other potential concerns as a result of
MountainTop’s lack of monitoring. Because MountainTop did not make any
attempt to review or evaluate the relationships between subrecipients and
their vendors or contractors, conflicts of interest may have existed when
subrecipients made purchases. Also, MountainTop failed to ensure
equipment and other grant purchases were necessary and in support of
legitimate law enforcement needs specific to each local agency. Absent
some form of documented need, grant funds have the potential for abuse
and wasteful spending by the subrecipient. However, it should be noted that
while we did not find any instances of such activities, MountainTop’s lack of
oversight leaves the potential for fraud and misappropriation of grant funds.

       We found several instances where grant funds were not adequately
accounted for or reported by the subrecipients. While we did not find any
instances where the grant funds were not spent on law enforcement
activities, the potential for fraud, abuse, and wasteful spending of grant
funds remained significant due to MountainTop’s lack of monitoring and
oversight. Because Mountaintop did not maintain adequate documentation
to monitor subrecipient expenditures, did not review the subrecipients’
financial operations, records, systems and procedures, and did not evaluate
subrecipients’ inventory controls or budget, we are questioning all of the
funds distributed to subrecipients (all grant funds drawndown minus



                                    - 9 -

personnel costs and independent auditor’s costs) for the grant and two
supplements, totaling $3,330,669.

Reports

Financial Status Reports

      The financial aspects of OJP grants are monitored through Financial
Status Reports (FSR). According to the Office of Justice Programs (OJP)
Financial Guide, FSRs should be submitted within 45 days of the end of the
most recent quarterly reporting period. Even for periods when there have
been no program outlays, a report to that effect must be submitted. Funds
or future awards may be withheld if reports are not submitted or are
excessively late.

      We reviewed each of the 12 FSR’s submitted by MountainTop and
found the FSRs were generally submitted on time and generally reflected
grant activity. However, we found three of the submitted FSRs were late
and three contained errors that were later corrected.

Progress Reports

      Progress reports are submitted in order to present information on the
performance of a grant. MountainTop submitted progress reports to OJP
timely every 6 months. In its progress reports, MountainTop reported the
amount of funds disbursed to the subrecipients and select testimonial
evidence provided by subrecipients regarding the success of the grant
program.

Drawdowns

      The OJP Financial Guide establishes the methods by which the
Department of Justice makes payments to grantees. The methods and
procedures for payment are designed to minimize the time elapsed between
the transfer of funds by the government and the disbursement of funds by
the grantee. Grantees may be paid in advance, provided they maintain
procedures to minimize the time elapsing between the transfer of funds by
the government and the disbursement of funds by the grantee.

      According to a MountainTop official, MountainTop requested
drawdowns in advance based on the amount scheduled by the 12th District
Office to be distributed to subrecipients. Additionally, in October 2006,
MountainTop's independent auditors reported in their Program Specific Audit
Report that MountainTop "often kept large balances of federal funds on


                                   - 10 -
hand" and recommended that MountainTop "develop procedures to
determine cash needs before drawdowns of federal funds are requested in
order to minimize cash on hand and minimize interest earnings."
MountainTop began drawing down the correct amount of funds, without
excess, and no longer earned interest on grant funds after this issue was
brought to management’s attention (see Program Income section of this
report).

     We reviewed the drawdowns for the grant and two supplements and
determined each was adequately supported by MountainTop financial
account activity reports and bank statements.

Budget Management and Control

       The OJP Financial Guide addresses budget control surrounding grantee
financial management systems. Grantees are permitted to make changes to
their approved budgets to meet unanticipated program requirements.
However, certain types of changes to approved budgets require advance
written approval from the awarding agency:

      	 budget revisions that could result in the need for additional funding,
         and

      	 cumulative transfers among direct cost categories that exceed or
         are expected to exceed 10 percent of the total approved budget.

In our view, failure to adequately control grant budgets could lead to the
wasteful and inefficient expenditure of government funds.

      Upon grant award approval, OJP provides a Financial Clearance
Memorandum to grant recipients that state the approved itemized budget for
the grant. The Financial Clearance Memoranda for the MountainTop grant
and two supplements approved the following budgets.




                                    - 11 -
                              BUDGET APPROVED BY OJP 

                ORIGINAL                                       COMBINED
   COST                        SUPPLEMENT     SUPPLEMENT                         ACTUAL
                 GRANT                                           TOTAL                   4
 CATEGORY                       1 BUDGET       2 BUDGET                         EXPENSES
                 BUDGET                                         BUDGET
Personnel         $ 20,000       $ 40,000     $     60,000      $    120,000     $      9,884

Travel               4,500            5,000          5,000            14,500                 0

Equipment         470,239         936,643         1,903,286         3,310,168        3,330,669

Other                     0           5,000          5,000            10,000            5,885

TOTAL           $494,739        $986,643      $1,973,286       $3,454,668       $3,346,438
 Source: Office of Justice Programs

       We attempted to compare the OJP-approved budget to the
 expenditures that MountainTop claimed as related to the grant to determine
 whether grant funds spent conformed to the approved grant budget. We
 found that MountainTop did not ensure that grant related expenditures were
 being spent in accordance with approved grant budget.
 The grant application stated:

         The overarching goal of this grant is to improve the ability of law
         enforcement agencies in southwestern Pennsylvania to fight
         crime. Funds from this grant will be used to cover the purchase
         of protective vests, community police training, communications
         equipment, and enhancements to communications infrastructure
         in the multi-jurisdictional areas of four southwestern
         Pennsylvania counties. This demonstration project is intended to
         increase the number of rural police agencies that have access to
         both the training and equipment to help promote officer safety
         as well as the capacity to fight crime.

       Additionally, the approved grant budget worksheet indicated that the
 grant funds were to be spent on communications and hazardous materials
 equipment for the municipalities working cooperatively in the project. The
 cost breakdown of equipment consisted of “protective vests, IT equipment,
 communication equipment, waterproof cameras, [and] enhanced
 photography equipment.”


         4
            MountainTop provided accounting records for the $2,280,513 dispersed to
 subrecipients. According to MountainTop personnel, MountainTop was in the process of
 distributing the remaining $1,050,156 to subrecipients. Therefore, expenditure
 documentation was unavailable to review at the time of our audit.


                                          - 12 -
       During our site visits to the 27 subrecipients, we found grant funds
were spent on police vehicles, firearms and tasers, video equipment, bullet
proof vests, matching funds for state grants, and computer and
communication equipment. In addition, subrecipients spent grant funds on
officer training and certifications, uniforms, and other basic supply items.
However, we were unable to determine the amount of grant funds used to
purchase OJP approved equipment according to the budget because
MountainTop did not maintain records that indicated the specific nature of
the subrecipients’ purchases. Instead, it classified all subrecipient
expenditures as equipment purchases.

      MountainTop did not ensure subrecipients conformed to the approved
budget. Therefore, we question all of the grant funds under the equipment
grant budget category for the grant and two supplements, totaling
$3,330,669, because MountainTop failed to adequately manage and control
the grant budget.

Program Income

      The OJP Financial Guide states recipients and subrecipients shall
minimize the time elapsing between the transfer and disbursement of funds.
Any income resulting from program operations should be recorded by
recipients.

      While reviewing bank statements covering the grant period, we found
MountainTop earned interest on grant funds. MountainTop had transferred
grant funds from its checking account to an interest bearing account.
However, this issue was noted in MountainTop’s Program Specific Audit,
required by OJP, and MountainTop had taken corrective action and returned
to OJP interest earned. We found no other evidence of program income
during our review and testing.

Program Performance and Accomplishments

      According to the award documentation, the purpose of the grant
program was to help improve the ability of law enforcement agencies in
southwestern Pennsylvania to fight crime. We found that MountainTop did
not have a formal method to measure performance of the program.
According to the MountainTop Program Manager, MountainTop relied on
success stories from the subrecipients to measure performance. The grant
application included the following objectives for the original grant:




                                    - 13 -
     Increasing the number of protective vests for police agencies.
     Increasing the access to training programs to law enforcement
      officers.
     Leveraging the power of the web and computers for better law
      enforcement.
     Improving command and control on the scene of the emergency.
     Enhancing communications between responding emergency units.
     Increasing cost effectiveness in both operations and maintenance of
      communications.
     Supporting interoperability between local, state, and federal agencies.

      The grant application for Supplements 1 and 2 included the following
specific objectives:

     Enhance traffic safety;
     Promote officer safety;
     Improve community safety;
     Increase access to officer training and equipment for officers; and
     Procure office equipment for law enforcement use.

      Because MountainTop did not develop any measurable goals or report
achievements as related to the goals and objectives for the project, we
found that MountainTop did not ensure the goals and objectives of the grant
were reached.

Other Reportable Matters

Grant Application

      In its grant application, MountainTop stated that grant funds would be
issued on a reimbursement basis. Subrecipients were to submit purchase
orders or invoices to MountainTop and, if MountainTop determined the
purchase order or invoice met the grant criteria and other parameters,
MountainTop would then issue a check to the requesting agency. However,
inconsistent with the application, MountainTop distributed funds in advance
to subrecipients. MountainTop then gave the subrecipients 100 days to
provide support for the law enforcement purchases made.




                                    - 14 -
Program Specific Audit Report

       According to MountainTop’s Award Documentation, OJP required
MountainTop to have a financial audit and compliance audit performed by
qualified individuals who are organizationally, personally, and externally
independent from those who authorized the expenditure of federal funds.
This audit was to be performed on a program-wide basis to ascertain the
effectiveness of financial management systems and internal procedures that
were established to meet the terms and conditions of the award. This audit
report was to be submitted no later than 9 months after the close of each
fiscal year during the term of the award.

       According to the grant requirement, MountainTop’s independent
auditors should have completed two individual audit reports, one for each
fiscal year (FYs 2005 and 2006). However, MountainTop’s program specific
audit covered two fiscal years, May 1, 2004, through May 31, 2006. Had
these audits been completed in a timely manner, the issues regarding the
management of the grant, including the earning of interest on grant funds,
may have been discovered and remedied earlier in the life of the grant
program.

Conclusion

       We found that MountainTop was in material non-compliance with grant
requirements we tested. We reviewed its compliance with seven essential
grant conditions and found material weaknesses in two of the seven areas:
(1) monitoring subrecipients and (2) budget management and control. Most
significantly, we found that MountainTop inadequately monitored
subrecipients that received grant funds. As a result of these deficiencies, we
question $3,335,583 in grant expenditures, or about 97 percent of the total
grant award.

Recommendations

      We recommend that the OJP:

1. Remedy $4,914 in unapproved indirect costs charged to the grant.

2. Remedy $3,330,669 in unsupported questioned costs that were expended
     without adequate monitoring in place to ensure that subrecipients met
     established financial management guidance.

3. Ensure that MountainTop properly monitors subrecipients in the future.



                                    - 15 -
4. Remedy $3,330,669 in unallowable questioned costs where MountainTop
     failed to demonstrate that the approved budget is being met.

5. Ensure MountainTop follows the approved budget.

6. Ensure MountainTop develops grant performance measures and monitors
     the performance of the grant.

7. Ensure that MountainTop follows the approved grant application.

8. Ensure that MountainTop submits the required program audits.




                                  - 16 -
                                                                    APPENDIX III 



                  OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance
in the following areas: (1) grant expenditures, including personnel and
indirect costs, (2) monitoring subrecipients, (3) financial status and
progress reports, (4) drawdowns, (5) budget management and control,
(6) matching, (7) property management, (8) program income,
(9) program performance and accomplishments, and (10) monitoring of
subgrantees. We determined that property management, matching
funds, and monitoring of sub-grantee were not applicable to this grant.

       We conducted our work according to Generally Accepted Government
Auditing Standards with one exception: although we discussed the findings
of our audit with MountainTop as our field work progressed and included
their comments in the report where applicable, we did not discuss our
findings with MountainTop at the conclusion of the audit due to the
investigation referral. In our judgment, this departure from Generally
Accepted Government Auditing Standards had no adverse effect on the audit
results.

      Our audit concentrated on, but was not limited to, the award of the
grant on September 23, 2004, through September 29, 2007. This was an
audit of the BJA Congressionally Mandated Grant No. 2004-DD-BX-1374.
MountainTop had a total of $3,346,438 in drawdowns through November
2007.5

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
used for this audit are identified in the Office of Justice Programs Financial
Guide and the MountainTop award documents.

      In conducting our audit, we tested MountainTop’s grant activities in
the following areas: grant expenditures, monitoring subrecipients, financial
status and progress reports, drawdowns, budget management and control,
program income, and performance of grant objectives. In addition, we
reviewed the internal controls of MountainTop’s financial management
system specific to the management of DOJ grant funds during the grant
period we audited. We also performed limited tests of source documents to

      5
          Through December 22, 2010, MountainTop had drawndown $3,450,783.


                                       - 17 -

assess the accuracy and completeness of reimbursement requests and
financial status reports. However, we did not test internal controls for
MountainTop as a whole or those specific to the BJA grant administered by
MountainTop; nor did we test the reliability of MountainTop’s financial
management system as a whole. As part of the grant award, MountainTop
had a program specific audit performed by an independent Certified Public
Accountant. We reviewed the results of that audit and our discussion can be
found under the Other Reportable Matters section of this report on page 15.




                                  - 18 -
                                                                            APPENDIX II 



                 SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                                  AMOUNT                PAGE

 Unapproved Indirect Costs                                         $        4,914           6

 Inadequate Subrecipient Monitoring                                    3,330,669           10

 Failure to manage and control the grant                               3,330,669           13
budget

SUBTOTAL OF QUESTIONED COSTS                                       $ 6,666,252

  LESS DUPLICATION6                                               ($ 3,330,669)

TOTAL DOLLAR RELATED FINDINGS                                      $ 3,335,583


Questioned Costs are expenditures that do not comply with legal,
regulatory or contractual requirements, or are not supported by adequate
documentation at the time of the audit, or are unnecessary or unreasonable.
Questioned costs may be remedied by offset, waiver, recovery of funds, or
the provision of supporting documentation.




       6
          We questioned costs related to indirect costs, subrecipient monitoring and budget of
direct costs. Some of the questioned costs relate to identical expenditures – though
questioned for different reasons – and, as a result, the questioned cost is duplicated. We
reduced the amount of costs questioned by the amount of this duplication.


                                           - 19 -
                                                                                          APPENDIX III 



          MOUNTAINTOP TECHNOLOGIES, INC. 

        RESPONSE TO THE DRAFT AUDIT REPORT





                          MOUNTA INTO P TECHNOLOGIES, INC.
                         OFFIC IAL HES PONSE TO AU DIT RE I'ORT



         MountainTop Technologies, Inc. ("MountainTop") by its counsel, Michael W. SahI9n"y,
states the following official response to the Audi t Report prepared by the Omce of the Inspector
General, Audit Division ("O IG"). As set forth in the Executive Summary of the Audit Repo rt,
the audi t was prepared for the Office of Justice Programs (DJP) Bureau of Justice Assistance
(BJA), in connection with the congressionally mandated gra il! to MountainTop, designated by
grant award 2004-DD-BX-13 74, which grant was supplemented in September 2005 and
September 2006. TIle initial and supplemented grants are collective[y re ferred to as the 2004
Gram in this response. The purpose of the grant program was, as stated in the Executivc
Summary, to help improve the ability of law enforcement agencies in sout hwestern Pennsylvania
to fight crime.

         MountainTop's response is primarily directed to the conclusion and recommendations
made on Pages I S and 16 oCthe Audit Report. For reasons stated herei n, MountainTop disputes
that it was;n material noncompliance with grant requiremcnls, and also addresses certain
conclusions stated in the Executive Summary and Introduction. This response further
demonstmtes that the recommendations sct forth in the Audit Report have been anticipated and
the remedies already imp le mented by MountainTop.

I~es ponse   to E:U!cuti ve SummaI)' and Int rod uction:

        The 2004 Grant was initially awa rded May 1, 2004. The Supplements I and 2 extended
the project through August 31, 201 O. As noted in the Audit Report, the field work was
completed in 2001. MountainTop subsequently supplemented the field work by providing OIG
with all documents relating to the Grant, copied onto nine consecutive C Ds.

        Notwithstanding the ex tensive production of documents, MountainTop's adm inistration
of thc Grant and monitori ng of subrecipients continued unti l the program closed in Augu st 201 O.
Throughout that time, MountainTop monitored and examined budgets l\Ild expenditures of
subrecipients, liS set fo rth in detail in the response to recommendation 2 below.

         Fina[ Financial and Narrative Reports werc filed with OJP and the 2004 grant   h~s   been
fiscally and programmatically closed.

        In III.kliliuIl, MvuntainTop was authorizc d to ndm inister nn additional OJP Gram, No.
2008-DD-BX-0499. The administration of that grant involved evaluation of grant appl ications
front police departments throughout the l 21h Congressional District. It also involv ed the
continued moni toring of the accoun ting and inventory systems and budgets o f police dcpartm ents
who received or applied for gran ts under the 2008 Grant. The 2008 Gram has since been closed
and audit reports submit1ed, MountainTop's administration of the 2008 Grant were favorably
reviewed.




                                            - 20 -

Overview of G ran t Applicat ion \'roccss:

        To ascertain the needs of police depanments in the 12'" Congressional District, SUf'\'eys
were sent to cach police dcpartment in the district. Based upon those surveys and the staled
needs, grants were ~warded. MountainTop did consult with ce"ain staff members from (he 12'"
Congressional District Office becausc those staff members had unique knowledge of the various
police depallmcnts throughout the district and the geographic and demographic components that
enabled analysis of the most effective use of the grant money. Page 2 of the Audit Report notes
that "not all law enforcement agencies in the 12'" Congressional District received grant funds ."
Some departments did not respond to the surveyor slate any speCific need. For that reason,
MountainTop obviOUsly did not make grants to those departments.

        Page 12 of the Audit Report set forth the grant budgets approved by OJ? for the original
grant and supplemental grants. These original budgets were amcnded by a Grant Adjustment
Notice ("GAN") approved by OJP on June 3, 2010. Sec auached Exhibit I. As sel forth in more
detail below, the I::xpenditures by MountainTop were consistent wilh the June 3, 2010 GAN. The
2004 Grant and supplemcnts were closed out with a Fedcral Financial Report. See Exhibit 2,
together with II Final Report Narrative. See Exhibit 3.

        The Grant Applications stated "thl:: over-arching goal of this grant is to improvc the
ability of law enforcement agencies in southwestern Pennsylvania to fight crime. Funds from
this grant will be used to cover the purchase of protective vests, community polict training,
communications equipment and enhancements to communications in infrastructure in the multi­
jurisdictional areas of southwestern Pennsylvania counties. This demonstration project is
intended to increase the number of rural police agencies that have access to both the training alld
equipment to hel p promote offiecr safety as weU as the capacity to fight crime". MountainTop
disputes any implicati on that these program goals were not met by its grants to local police
departments. It submitted required interim reports to OJP, including Exhibit 3, reflecting the
 increased crime-fighting capacity experienced by local departments from the grants.

        Page 9 of the Audit Report acknowledges that CIG "did nOl find any instances where the
grant funds were no t spent 011 law enforcement activities." In fact, grant funds were used to
enhance technologies, equipmenlnnd training necessary to law enforcement in the 12'"
Congressional District. The balance of this Response establishes that MountainTop took aU
monitoring and budget managcmelll and control reqUired by the Grant Applications.

OIG Rceonllnendat ion No. 1 -OIG Proposed Remedy $4,914.00 in unapproved indirect costs
-::harged to the grant.

        Moun tai nTop Res ponse:   Page 6 of the Audit Report states that "MountainTop
charged an overhead rate of98% and II general and administrative rate of2 J % 10 the perSOnnel
costs". OIG questioned the S4,914.00 of indirect costs charged to the gran!.

          MountainTop subsequently submitted a request for II GAN, which was approved June 3,
20 I 0, (see Exhibit 1). A copy of Mountai nTop'S actual labor costs, fringe benefits, travel costs


                                                 2




                                             - 21 -
and consulting fees lind related administrative expenses is set fOrlh on Exhibit 4. A comparison
of the Ju ne 3, 201 0, GAN rcflects that DIP approved expendilllres of$17 ,646.00 for fringe
benefits. This approval was in lieu of the indirect charges by MountainTop 10 the gran!. The
aClual amount expended by MountainTop was $17,704.48. The difference is $58.48.
Moull!ainTop maintains that the June 3. 2010, OAN remedies the issue relating to unapproved
indirect costs.

Rec omme ndat ion !'"O. 2 -010 Proposed Remedy $3,330,669.00 in "Unsupported, questioned
costs" tha t werc allegedly expended without adequate monitoring.

         Mounta inTop Response: MountainTop disputes the allegation that the granls were
expended without adequate monitoring or that il failed to meet established financial management
guidance. MountainTop monito red subreeipients and maintained budget management and
control.

        It must be noted that the majority of subrecipients were small rural police departments
that did not have sophisticated accounting systems. Many of these departmcnts had part.time
officers or police chiefs and limited administrative staff. These departments committed their
manpower to police work in the field. MountainTop therefore had to instruct and constantly
follow-up on the documentation that was required to assure that the grant funds were spen t
consistently wi th program objectives and applicable admin istrative guidelines. MountainTop
assigned an individual to work almost full time on this admin istrative task, with additional staff
time committed as needed 10 supplement the work of the primary administrator.

        In response to inquiries made by 010 in 2007. however, Mou ntainTop commenced an
ex tensive re·review of each subrecipieuI's documentation of grant expenditures to assure that the
costs charged to the grant were allowable and supported. MountainTop further requested
documentation to assure thai each subrecipient had taken appropriate steps to comply with grant
requi rements. Moun tainTop's representative also conducted follow-up site visits to
subreeipients. A copy orthe monitoring ehecklist used al the sile visits is auachcd as Exhibit 5.
A copy of the inde){ showing the fi les sttlred in cotUlection with grant documentation provided by
each subrecipient is attached as Exhibit 6. Please note that E){hibit 6 renects information that is
supplemental to the documentation previously supplied to 010.

        On September 21,2011,                      of DIG advised Mou ntainTop's eouns~lthot
010 did not wish to have hard copies or electronic copies of the documents on the CD or a copy
of the CD at this time. The CD with all documentation is available and is hereby offered in the
event that DIG or subsequently, OlP rcpre.<rent atives wish to see the files. An i!1 ustrative file
reflecting the scopc of monitoring, however, is provided wi th dOC\lInenlalinn nhlaincd from the
Upper Yoder Township Police Departmcnt documenting expenditures made by it with the grant
funds. See bhibit 7. 11 should be noted that an ex tensive additional lile of photographs is
available wi th respect to the Upper Yoder Township grant.

        [n addition to the monitoring, MOWltainTop specifically addressed concerns relating to
the interes t eurned by su::'recipients. E){hibit8, att ached he reto, is the form lel!er senl by
MountainTop to the subrecipients in order to collect information concerning interests. Exhibit 9


                                                  J




                                           - 22 -
is a summary comparing 2004 and 2008 grant recipients. The third column of that exhibit,
however, reneets that interest checks were returned by subreeipients for interest earned in excess
orslOO,OO. MountainTop refunded collected interest repayments as ""'elias interest earned by
MountainTop on grant funds to DOl. See Exhibit 24.

         Based upon ils review of subrtcipient records, MountllinTop believed that certain
subrecipients might have used grant funds for purposes inconsistent with grant purposes or to
supplant general budgeted             expenses of the              Therefore, on August 19,
2008 .          i                                                             review and
collection acti ons                                                         . 111C inquiry was
origi nally made by            then                                 August 19. See Exhibit 10.
A response to both                                                    September t7, See
Exhibi t II.

        The rcsponse provided by                 provided guidance about the analysis of
documentation provided by subrecipients. On Page 2 of Exhibi t II,                  stilled
"Assuming, based on the evidence available to the grantee, the subreeipient has del iberately
reduced stale or local funds because of the available federal funding, then as an alternative 10 the
course suggested in Ihe fi nancial guide ... you may wish to co nsider requiring that the
5ubreeipient return any federal funding thaI has been used 10 supplant local or Slate funds aoo
then submit a new request for reimbursement of allowable equipment elCpenditures. This will
ensure a clearer audit lrail of Ihe federal funds and will a\'oid potential ambiguity regarding its
use. If this cannot be accomplished, you propose \0 have the jurisdiction submit receipts for
acceptable equipmer.1 and replace the improper expenses with proper expenses: this alternative is
a~epl ed (though the previous suggestion is prefened) as long as tranSpa!'Cnt and thorough
records are maintained of the subject transactions. It is also recommended that you increase your
moni toring of this suhrecipienL"

        Pursuant to the fin ancial guides and the OMB Circulars A I 0 and A 133, and l!l~lIIII.
suggestions, MountainTop and ils legal counsel carefully analyzed sub recipients records to
ascertain whether SUppl3nl ing had occurred, MountainTop authorized its legal cou nsel to
proceed with collection activities to recover funds, where collection was su pported by thai
review, as follows:

                I.     Without agreeing or admitting that it had used any funds inappropri ately,
                       Cresson Borough, Cambria County, refunded S20,000.00 based upon
                       Moun tainTop's bclieflhat the subrecipient had used the grant funds to
                       purchase a pol ice vehicle for which Cresson had already budgeted funds
                       from ilS capitol account. This WlS discovered by a revi ew of ~rrl k.Ahle
                       Cresson Dorough mi nute books and resolutions. MountainTop alleged
                       that the grant funds were therefore used to supplant genera l funds.
                       Cresson Borough disputed Ihis allega tion, but agreed \0 stille the maUer.
                       The S20,OOO.OO was deposited in MountainTop's grant ~ccount and
                       awarded to other subreei pients from the grant Dccount. See Exhibit 12.

               2.      After site visits and repeated reviews of documents, MountainTop fOUlld

                                                 ,




                                           - 23 -
                      evidence and asserted tha t Southwes t Regional Police force had used grant
                      funds for purposes that supplanted general fund obligations.
                      MountainTop's investigation included, wi thout limitation, a review of
                      Southwest's equipment, invoices and related financial records and annual
                      budgets. Moull1ainTop determ ined that the amount supplanted was
                      $3,884.98. MountainTop recovered that amount from Southwest Regional
                      and refunded the total to OJP. See Exhibit 11

              3.      After site visits and repeated reviews of dOCl.lments, MountainTop found
                      evidence and asserted that Fayelle City Police force had used grant fl.lnds
                      for purposes that supplanted general fund obligations. MountainTop
                      determined that the amount supplanted was $6,504.17. Fayette City
                      Borough reimbursed the amount of $6,504. 17 to MountainTop for grant
                      funds that were used to supplant general funds. The said $6,504, 17 was
                      deposited into Mou ntainTop's grant Il<:count and awarded 10 other
                      subrecipients from the grant account. See Exhibit 14.

              4.      $15,000.00 was distributed to West Kittanning Borough Police
                      Department. Although port ions of Kittanning are in the 12'"
                      Congressional District, it was determined that the police department was
                      located in the Borough of West Kittanning, which was outside of the \ 2'"
                      Congressional District. The $15,000.00 was refunded by the West
                      Kittanning Police Department, and the said amount was returned to OJ P.
                      See Exhibit 15. OJP pcrmilled the $1 5,000.00 to be withdrawn as part of
                      the 2004 Granl.

        As a result of its continued monitoring of and communication with sUbrec;pients,
Mountaif"lTop determined that tertllin subrecipients wished to dispose of equipment pUTchllsed
wi th grant funds . MountainTop has taken the following actions wilh respect to such
subrccipicnts:

               I.                                      Police Depart ment was dis~olving. With
                                                            having value in excess ons,ooo,OO
                                                          the Somerset Cou nty Pennsylvania
                                                 Sce Exhibit 16.

              2,      The Seven Springs Borough Police Department has been discontinued and
                      Seven Springs has inquired about how it is to dispose of the police veh icle
                      pu rchased by it. Although the vehicle was purchased u~ing funds from the
                      2008 Gram, MountainTop's oversight on this issue reflecls that il
                      continues to monito r sub recipient's use of property acquired with grant
                      funds. MountainTop continues to advise Seven Springs Ihat the vehicle
                      Clln only be disposed of consistent with OMS Circular A-110. See E:<hibit
                      17.

OIG It ecommend ation No.4 - 0 1 Proposed Remedy $3,)30,669.00 in allegedly unsupported,
                                0

                                                5




                                          - 24 -
questioned cOSts where expenditures allegedly failed to meet the approved budget.

       MountainTop disputes the contention in the Audit Report tha t it failed to demonstrate the
approved budgets were mCL First, the June 3, 20 10, GAN authorized allocation of all grants to
subrecipients to a category approved under the ter1l1 "Contractual". The June 3, 2010, GAN
thereby explicitly accepted thallhe expenditures made by MountainTop were approved under lUI
amended bud geL

        MountainTop's internal historical information concerning the categorization of the grants
shows Ihat the grant expenditures made by subrecipients were consistent wit h the program
purposes and gran t app lication. Thc grant applications each stated that "the over-a rching goal of
this grant is to improve the ability of law enforcement agencies in sout hwestern Pennsylvania to
light crime." The applications further stated that "funds from this grant will be used to cover the
purchase of protective vests, community police training, communications cquipment and
enhancements to communications infrast ructure in the multi-ju risdictional areas of sout hwestern
Pennsylvania countics. The demonstration project is intended to increase the numbe r of rural
police agencies that have access to both the training and equipment (emphasis added), to help
promote offi cer safety, as well as the capacity to fight crime."

       Although the grant,<..-,,_ :.                                          distributions did not
commence until the 'j                                                         grant adm inistrator at
the time, specifically  I                                 M.;;;;;;;;;;,[., b<U;;"j ",,,;,t could
make grants that would assist

        On Dccember 12,2006,                     addressed an email to                 DOJ's grant
administrator for the 2004 Grant, stating "they (t he police departments) also need equipment
such as more effective bullet-proof vests, taser guns, training on how to use these guns, etc. In
addition, many need new squad cars equipped with video cameras, laptops, laser guns, etc ... so
what falls wi thin the definition of "law enforcement technology'· and what does not? We want to
submit a morc detailed budget of how the funds will be spent, but are stuck until we understand
the definition. ,.

        In a follow-up letter dated December 20, 2006, addressed from                    10.
_                        specifically stated "in FY04/05, some agencies used their funds to help
procure new squad cars; because we limi ted the amount of funding to $15,000.00 per entity, they
had to find additional funding for the car.;. which they did since the need for new vehicles was so
pressing. As an example, the Sheriffs department in Westmoreland County was transport ing a
convicted murderer from the State prison located in the county to the county COUl1house for a
hc"rillg; while in route, their squad car with 200,000 miles broke down on the side of the ro~rl ror
several hours, causing a great concern about public safcty. Police cars with many miles on them
are common in our area, since southwestern Pcnnsylvania is mostly rural and police departments
usually only have a few squad cars to cover large areas:'

     !I~III~III!!I then requested that the administrative hold on the 2006 supplement to the
FYQ4/05 grants be lifted. In fact, the hold was lifted in 2006 and funding was authorized with
Dors knowledge that some grants were being used ror vehicle acquisition.


                                                  6




                                           - 25 -
       The emails from • • • • • • " • • • • areset forth in Exhibits 18 and 19.

        We also enclose II report provided
Assistance Seminar in lanuary 2007. See ",""",,,.                             from the seminar,
that the Bureau of Justice indicated that it was satisfactory ~;;;~ru;;,"" i ,"""y mandated
grants to fund squad cars.

        On March 13,2007, MountainTop submitted an interim Summary of Orant Fund
Disbursements to the OJP. See Exhibit 21. The report shows grants used by the subrecipients
including Un iontown Police Department, Perryopolis, Ebensburg Borough, Dunbar Borough,
Washington Township, and others to purchase police vehicles. Photographs of the police
vehicles are contained in the report. It is therefore obvious that MountainTop at no time
interpreted the grant application to exclude the use of grant funds for purchase of police vehicles,
which wefe essential to law enforcement in a heav ily rural district. DOJ was aware of the
purchases and ultimately approved expenditu re s of grant funds for police vehicles by approving
the comprehensive reallocation in the June 3, 20 I 0, GAN.

        The audit report questions whethcr the grant expenditures were, in fact, consistent with
the grant purposes. MounminTop tracked the use of grant funds for budget pu rposes internally.
Exhibi t 22, attached hereto, shows a breakdown of the use of grant funds for the fiscal year 2004
and 2005 Grants, through October 24, 2007. Exhibit 23 shows the breakdo wn of grants mad e
under the 2006 supple ment. Exhibit 22 and 23 do not show distributions made in 201 O. The
2010 grants were made for specific purposes as authorized by the gran ts, however.

      Exhibit 23 sets forth a list, printed on September 22, 201 1, evidencing all disbursements
made und er the grant.

        Notwithstanding the 20 lOGAN, a review of Exhibits 22 and 23, evidence that grant
expenditu res by subrecipients wert consistent with the budgets at the ti me. It is not uncommon
10 retrospectively request amendment of the budgets consistent with reallocations, as occ urred in
this case.

       For the 2004·2005 fiscal years, Page 12 of the Audit Report rel1ects that $1 ,406,882.00
was authorized for equipment expendi tures. Exhi bit 22 shows that actual equipment
expenditures were $1,540,216.20, including equipment and vehicles. Autho rized personnel
expenses in Ihe 2004·2005 fiscal years were $60,000.00. Reported expenditures were actually
$65,18 1.44 and personnel are included. Costs category for travel was $9,500.00. No amount
was allocatcd or c;o;pcndcd for travel in 2004·2005 cycle.

        For 2006, the OJP budget authorized expenditu res of $1 ,903,286.00 fo r equipment.
Exhibit 23 shows that grants for $1,744,349.00 were made for vehicles and law enforcement
equipment. An additional $298,5 14.00 was spent for informational technology. These
expendi tures were separately listed by MountainTop because invoices rellected that when
technol ogies were purchased, they often came with training, software, maintenance and
installation, which was integral to the equipment itself. It was therefore concluded by


                                                  7




                                           - 26 -
MoulltainTop that a separate line item for information technology would provide belief internal
information as to the use of grant funds in 2006.

       Budgeted personncl expenscs for MountainTop in 2006 were $60,000.00. Actual
personnel expenses for personnel were $553.67.

         It should be noted that the spreadsheets for 2004-2005 and 2006 were not final
spreadshects and do not renect final tota l distributions after amounts recovered in cases where
inappropriate expenditures or supplanting was discovered, as sct forth in the preceding section
relatin g to the monitoring. The exhibits are evidence, however,that grant funds wcre expended
consistent wi th program budgets and purposes.

        In preparing this report, MountainTop found, in Exhibit 24,that its books do reflect a
$212.55 difference between Ihe amount that it shows as expended and the amount shown under
the OOJ budget authorized undcr the June 3, 20 I 0, GAN. $100.00 of this amount is allribulable
to MountainTop'S initial $100.00 to open a grant fund checking account. MountainTop believes
that an amount of $112.55 may still be owed. back to OIP. MountainTop believes this may be a
result of an uncleared check, but is unable to document that amount and would be willing to
reimburse that amount if OI P dctennines that reimbursement is appropriate after review of this
response.

        It is clear that MountainTop's grants to subrecipients, and the expenditure of Ihe grants
by subrccipients were consistent with the overall purposes of the grant to improve thc ability of
low enforcement agencies in southwestern Pennsylvania to light crime. Exhibits 2 1-23
demonstrate the uses to which the grants were put. In its monitOring of documents and during its
onsite visits, MountainTop found no evidence that funds were misappropriated or in any way
used fraudulently. MountainTop found no documentary or onsite evidence of any
misappropriation of funds or self-dealing. As set forth in the preceding section relating to
monitoring, MountainTop worked with the police departments to advise them of their obligations
concerning property managemcnt, and the police departments have, when necessary, contacted
MountainTop cOllcerning thc appropriatc procedurc to disposc of equipment acquired with grant
funds. Sce Exhibit$ 16 and 17. In addition to the written responses contained in those exhibits,
MountainTop personnel have quickly responded to verbal inquiries to assure that police
dcpartments maintain their inventory and equipment control.

        Based upon all of the forcgoing, MountainTop has supported all expenditnres in a manner
consistent with the approved budget and has remedied any alleged audit deficiency referred to in
010 Recommendation No.4.

OIG Reeo mm end ati ons No. 3 a nd 5-8 - MountainTop has ftled its Final Financial Repol' and
Report Narrative (See Exhibit 2 and 3). MountainTop has receivcd notification that the 2004
grant and supplements have been programmatically and fiseally closed. Sce Exhibit 25. The
foregoing sections of this report show thaI MountainTop followed the approved budget, as
amended by the lune 3 20 I 0, GAN lind that MountainTop demonstratcd that grant expenditures
met perfOllTlllnCe standards. The foregoing sections also show that MountainTop monitored the
performance grant and either followed or took remcdial actions consistent with the grant


                                                8




                                          - 27 -
application. All program audits have been submitted by Mountai nTop. For that reason, the
recommendations contained in Nos. 3, 5, 6, 7, and 8 of the audit report have been followed and
satisfied.

Su mmary:

        MountainTop has taken all actions reasonable or necessary to doeumentthat funds
granted to subrecipients were consistent with both the program purpose and program budget. In
those cases identified by MountainTop where supplanting occurred or expenditures were not
consistent with the program purposes or budget, MountainTop recovered the fu nds from the
subrecipients and returned those funds to the OlP or added the returned funds back to the grant
accoulll for redistribution. MountainTop maintains that it has remedied any deficiencies alleged
by OIG with respect to monitoring, budget controls and general grant administration and has
prope rly accounted for all el{penditures of funds .

        The mosl crucial lind relevant point is that all of the 2004 grant funds and 2005 and 2006
supplements were used for valid administrative costs and, more importantly, for police
teclmology, equipment, training and vehicles essential to fighting crime in the 12'h Congressional
District. The funds were used consistent with the grant purposes. By the year 2008, OJP was
confident enough of MountainTop's abilities that it authorized Mou nt uinTop to admi nister BOA
Grallt 2008-DO·BX-0449. That grant was successfully adm inistered, and audit and final
narrative report were subm itted, and DOl's administ rator,                  com plimented
MountainTop on the quality of the reports submitted. See Exhibi t 26.

        MountuinTop has successfully and appropriately admi nistered the 2004 grallt and
requests that the final audit report reneclthat all recommendatio ns made have been complied
with and thatlhe "Dollar related finding" be reduced to $0.00.

                                             Respectfully submilted,

                                             SAHLANEY & DUDECK LAW OFFICE




                                                                                  gies, Inc.




                                                 9




                                          - 28 -
                                                                               APPENDIX V


                       OFFICE OF JUSTICE PROGRAMS
                   RESPONSE TO THE DRAFT AUDIT REPORT



                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                                 Office of Audit, Assessment, and Management



                                                 Washington, D.C. 20531




September 21, 2011

MEMORANDUM TO:               Thomas O. Puerzer
                             Regional Audit Manager
                             Philadelphia Regional Audit Office
                             Office of the Inspector General

                              /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Office of Justice Programs,
                             Bureau of Justice Assistance, Congressionally Mandated Grant to
                             MountainTop Technologies, Incorporated, Johnstown,
                             Pennsylvania

This memorandum is in response to your correspondence, dated August 24, 2011, transmitting
the subject draft audit report for MountainTop Technologies, Incorporated (MountainTop). We
consider the subject report resolved and request written acceptance of this action from your
office.

The report contains eight recommendations and $3,335,583 in questioned costs. The following
is the Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For
ease of review, the recommendations are restated in bold and are followed by our response.

1. 	   We recommend that OJP remedy the $4,914 in unapproved indirect costs charged
       to the grant.

       We agree with the recommendation. We will coordinate with MountainTop to remedy
       the $4,914 in unauthorized indirect costs charged to grant number 2004-DD-BX-1374.



                                            - 29 -

2. 	   We recommend that OJP remedy the $3,330,669 in unsupported questioned costs
       that were expended without adequate monitoring in place to ensure that
       subrecipients met established financial management guidance.

       We agree with the recommendation. We will coordinate with MountainTop to remedy
       the $3,330,669 in unsupported questioned costs related to inadequate subrecipient
       monitoring of expenditures. If adequate documentation cannot be provided, we will
       request that MountainTop return the funds to the DOJ, and submit a revised final Federal
       Financial Report (FFR) for the grant.

3. 	   We recommend that OJP ensure that MountainTop properly monitors
       subrecipients in the future.

       We agree with the recommendation. We will coordinate with MountainTop to obtain a
       copy of written policies and procedures, developed and implemented, to ensure that
       subrecipients are properly monitored.

4. 	   We recommend that OJP remedy the $3,330,669 in unallowable questioned costs
       where MountainTop failed to demonstrate that the approved budget is being met.

       We agree with the recommendation. We will coordinate with MountainTop to remedy
       the $3,330,669 in questioned costs, related to the classification of all subrecipient
       purchases under the equipment budget category. If adequate documentation cannot be
       provided, we will request that MountainTop return the funds to the DOJ, and submit a
       revised final FFR for the grant.

5. 	   We recommend that OJP ensure MountainTop follows the approved budget.

       We agree with the recommendation. We will coordinate with MountainTop to obtain a
       copy of written procedures, developed and implemented, to ensure that the approved
       budget is followed at all times, and that any changes to the approved budget are
       authorized by the Federal awarding agency.

6. 	   We recommend that OJP ensure MountainTop develops grant performance
       measures and monitors the performance of the grant.

       We agree with the recommendation. We will coordinate with MountainTop to obtain a
       copy of written policies and procedures, developed and implemented, to ensure that
       performance measures are established and that MountainTop monitors the performance
       of the grant.




                                            - 30 -
7. 	    We recommend that OJP ensure that MountainTop follows the approved grant
        application.

        We agree with the recommendation. We will coordinate with MountainTop to obtain a
        copy of written policies and procedures, developed and implemented, to ensure that the
        approved grant application is followed at all times, and that any changes to the grant
        application are approved by the Federal awarding agency.

8. 	    We recommend that OJP ensure that MountainTop submits the required program
        audits.

        We agree with the recommendation. We will coordinate with MountainTop to obtain a
        copy of written policies and procedures, developed and implemented, to ensure that the
        required programs audits are submitted.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc: 	   Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Denise O’Donnell 

        Director

        Bureau of Justice Assistance 


        Tracey Trautman 

        Acting Deputy Director for Programs 

        Bureau of Justice Assistance 


        Amanda LoCicero           

        Budget Analyst 

        Bureau of Justice Assistance 


        Gale Farquhar 

        Program Manager 

        Bureau of Justice Assistance 


        Louise M. Duhamel, Ph. D. 

        Acting Assistant Director, Audit Liaison Group 

        Management and Planning Staff 

        Justice Management Division 


        OJP Executive Secretariat 

        Control Number 20111578 




                                             - 31 -
                                                               APPENDIX V


 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY OF
           ACTIONS NECESSARY TO CLOSE THE REPORT

Analysis of MountainTop Technologies, Inc. and OJP Responses

       We provided a copy of our draft report to the Office of Justice
Programs (OJP) and MountainTop Technologies, Inc. (MountainTop) for
comment. In its response, OJP concurred with our recommendations and
discussed the actions it will implement in response to our findings. In
responding to our report, MountainTop disagreed with our findings citing
actions taken after our audit to correct the deficiencies we found. We
recognize that significant oversight and corrective actions were taken after
our audit. However, actions taken after our audit do not negate our
findings, and we believe that MountainTop should continue to ensure that
policies and procedures are in place to properly safeguard any federal funds
received in the future.

       We reviewed and fully considered the issues raised by MountainTop in
its response to our report. After our analysis, we determined that our report
was factually accurate and the issues were clearly stated. For each instance
where MountainTop states that our report was incorrect, we address in this
appendix the specific issue in detail under the specific recommendation to
which it pertains.

Summary of Actions Necessary to Close Report

1. Closed. Remedy $4,914 in unapproved indirect costs charged to the
   grant.

  In its response, MountainTop provided as support for these costs a
  subsequently submitted Grant Adjustment Notice (GAN) and actual costs
  associated with labor, fringe benefits, travel costs, and consulting fees
  related to the management of the grants. The GAN was submitted and
  approved in 2010, 3 years after the obligation of the indirect costs we
  questioned.

  The OJP response agreed with our recommendation and OJP agreed to
  coordinate with MountainTop to remedy the $4,914 in unapproved
  indirect costs. This recommendation is closed based on the approval of
  the GAN authorizing these costs to the grants.

2. Closed. Remedy $3,330,669 in unsupported questioned costs that were
   expended without adequate monitoring in place to ensure that
   subrecipients met established financial management guidance.


                                   - 32 -

  In its response, MountainTop disputed the statement that the funds were
  expended without adequate monitoring in place or that it failed to meet
  established financial management guidance. MountainTop also stated
  that, in response to OIG inquiries, it commenced an extensive re-review
  of each grantee’s documentation and conducted site visits to monitor the
  subrecipients. During this re-review, MountainTop found unallowable
  interest earned by grant recipients, instances where grant funds were
  used to supplant local funds, and funding that went to a location that did
  not meet the requirements established by the 2004 grant. When these
  instances were noted, MountainTop took corrective actions that
  demonstrated active grant monitoring. MountainTop offered to provide
  OIG with documentation to substantiate its monitoring activity. Those
  monitoring activities and their related documentation, however, post-
  dated the OIG’s audit fieldwork and MountainTop’s expenditure of
  $3,330,669 in grant funds. The fact that MountainTop undertook actions
  to monitor its subrecipients after the OIG audit does not negate our
  finding that MountainTop failed to monitor its subrecipients in a timely
  and adequate fashion. MountainTop can present its documentation
  concerning its subsequent monitoring activity to OJP for OJP’s
  consideration of MountainTop’s present suitability to receive grant funds.

  The OJP response agreed with our recommendation. This
  recommendation is closed based on the documentation provided that
  demonstrates the grant monitoring activities performed by MountainTop.

3. Resolved. Ensure that MountainTop properly monitors subrecipients in
   the future.

  In its response, MountainTop stated that they monitored subrecipients
  and either followed or took remedial action consistent with the grant
  application as needed. Based on our audit fieldwork and review of
  MountainTop’s response, we found that these actions were performed as
  a reaction to our audit. Additionally, MountainTop’s response did not
  contain written policies or procedures implemented to ensure that
  subrecipients are properly monitored in the future.

  In its response, OJP concurred with our recommendation. This
  recommendation is resolved based on OJP’s concurrence and agreement
  to coordinate with MountainTop to obtain a copy of written policies and
  procedures, developed and implemented, to ensure that subrecipients are
  properly monitored. This recommendation can be closed when we receive
  documentation demonstrating that MountainTop has developed and
  implemented the required procedures.



                                   - 33 -
4.	 Closed. Remedy $3,330,669 in unallowable questioned costs where
   MountainTop failed to demonstrate that the approved budget is being
   met.

  In its response, MountainTop disputed the finding that it failed to
  demonstrate that it met the approved budgets. MountainTop stated that
  the June 3, 2010, GAN authorized allocation of all grants to subrecipients
  under the “Contractual” category. They concluded that the June 3, 2010,
  GAN thereby explicitly accepted that the expenditures made by
  MountainTop were approved under the amended budget. As noted in the
  report, at the time of our fieldwork we were unable to determine the
  amount of grant funds used to purchase OJP approved equipment
  because MountainTop did not maintain records that indicated the specific
  nature of the subrecipients’ purchases. Instead, it classified all
  subrecipient expenditures as equipment purchases. As the GAN is dated
  after the project end date and because at the time of our fieldwork we
  found that MountainTop could not demonstrate that the grant budget was
  being followed, our finding is not negated.

  The OJP response agreed with our recommendation. This 

  recommendation is closed based on OJP’s approval of the GAN and 

  MountainTop’s actions demonstrating that subrecipient spending 

  conformed to the approved budget.


5.	 Closed. Ensure MountainTop follows the approved budget.

  In its response, MountainTop stated that it followed the approved budget,
  as amended by the June 3, 2010, GAN. In OJP’s response, OJP concurred
  with our recommendation and agreed to coordinate with MountainTop to
  obtain a copy of written procedures, developed and implemented, to
  ensure that the approved budget is allowed at all times, and that any
  changes to the approved budget are authorized by the awarding agency.

  This recommendation is closed given that an amended budget was
  approved and MountainTop has demonstrated that it met the budget.

6. Resolved. Ensure MountainTop develops grant performance measures
   and monitors the performance of the grant.

  In its response, MountainTop disputed any implication that the program
  goals were not met by its grants and also provided documentation
  regarding oversight and interactions with the subrecipients that largely
  took place after our audit. However, MountainTop’s response did not
  include specific performance measures that could be used to assess the


                                  - 34 -
  grant’s results. Their performance measures consisted primarily of 

  testimonial statements from subrecipients with no auditable results. 


  The OJP response agreed with our recommendation. This
  recommendation is resolved based on OJP’s concurrence and agreement
  to coordinate with MountainTop to obtain a copy of the written policies
  and procedures, developed and implemented, to ensure that performance
  measures are established and that MountainTop monitors the
  performance of the grant. This recommendation can be closed when we
  receive documentation demonstrating that MountainTop has developed
  and implemented performance measures and procedures for monitoring
  grant performance.

7. Resolved. Ensure that MountainTop follows the approved grant
   application.

  In its response, MountainTop disagreed with this finding stating that they
  either followed or took remedial actions consistent with the grant
  application. The documentation provided regarding the responses to
  grant management and budget control were referred to in the
  disagreement with this recommendation. We note, however, that these
  actions occurred largely after our audit, including the approval of the GAN
  3 years after our audit’s fieldwork. As the grant application was the basis
  for the grant award, significant deviations from the application should be
  approved in a timely fashion.

  In its response, OJP agreed with our recommendation and stated that OJP
  will coordinate with MountainTop to obtain a copy of written policies and
  procedures, developed and implemented, to ensure that the approved
  grant application is followed at all times, and that any changes to the
  grant application are approved by the Federal awarding agency. This
  recommendation can be closed when we receive documentation that
  MountainTop has developed and implemented the written procedures to
  ensure the grant application is followed and any changes are approved.

8. Resolved. Ensure that MountainTop submits the required program
   audits.

  In its response, MountainTop stated that all program audits have been
  submitted, including a final Federal Financial Report and a Final Report
  Narrative. MountainTop submitted these reports after we performed our
  audit work. As of this date, however, OJP has not completed a full
  closeout of the grant.



                                   - 35 -
In its response, OJP agreed with our recommendation. This
recommendation can be closed when we receive documentation
demonstrating that MountainTop has submitted the required
documentation and OJP closes the grant.




                             - 36 -
